November 30,201 1


The Honorable Gregg Harper
Chairman
Joint Committee on Printing
1309 Longworth House Office Building
Washington, DC 205 10

Dear Mr. Chairman:

In accordance with 44 U.S.C. 3903 and the relevant provisions of the Inspector General
Act of 1978, as amended, I am transmitting to Congress the Semiannual Report of the
Office of the Inspector General (OIG) for the U.S. Government Printing Office (GPO)
covering the 6 month period of April 1 through September 30,201 1, along with the
following information as required by law. This letter meets my statutory obligation to
provide comments on the OIG's report and highlights management actions talcen on the
OIG's recommendations, which may relate to more than one reporting period.

Appointment of New Inspector General. The term of appointment for the interim IG
who prepared the attached semiannual report expired on November 4,201 1. I am pleased
to report that I have appointed a new IG, Mr. Michael Raponi, who has an extensive
background and experience in the Federal IG community, and who previously served as
the Deputy Assistant Inspector General for Audit at the U.S. Department of Labor
(DOL). While in that position, Mr. Raponi was responsible for overseeing the audit
program for the DOL including regional and national audit offices. He redefined the
agency's audit process while working with a reduced staff due to budget reductions.
Prior to his accomplishments at DOL, Mr. Raponi held various leadership positions in
audit divisions in offices of the Inspector General at the U.S. Department of Veterans
Affairs, U.S. Department of Housing and Urban Development, and U.S. Department of
Agriculture. Mr. Raponi served in the U.S. Army as a Patriot Missile Mechanic. He
holds a Master's Degree in Business Administration from Webster University in St.
Louis, MO, and a Bachelor's Degree in Business Administration from the University of
Northern Colorado. Mr. Raponi brings a wealth of knowledge and expertise to this
important position at GPO. I look forward to working with him in assuring the efficient
and effective performance of GPO's mission on behalf of Congress, Federal agencies, and
the public we serve.

General Comments. The following comments are on the OIG semiannual report's
discussion of management issues and the status of open recommendations. Before
proceeding, however, I want to provide an update on conditions at GPO.




7 3 2 N o r t h C a p l t o i S h i c o f . N W . W z s i i i n g i o n . D C 2 0 4 0 1 0001 i w b i l a i r n o n B g p o . ( i o v
The Honorable Gregg Harper - Page 2


I was pleased to see the language about the GPO in the report on the legislative branch
filed on September 15,2011, by the Senate Appropriations Committee, which
commended the GPO for the information services we provide to the American people and
for our willingness to work with less funding as Congress's workload increases. This
language represents what we have been focused on achieving at GPO for the past several
months: continuing and expanding GPO's provision of essential information services to
Congress, Federal agencies, and the public, while helping Congress achieve necessary
reductions in Federal spending.

As I noted in my comments on the last OIG semiannual report, adjusting GPO's finances
to the fiscal realities of 201 1 has been our first order of business. When I took office in
January, I found that overhead costs had increased significantly in recent years and were
projected to increase further, threatening GPO's financial stability. There was also a
longstanding problem of u~irecoveredpayments owed to the GPO by Federal agencies.
In response, we worked with the Senate and House Appropriations Committees to resolve
GPO's funding for FY 201 1 at a level that was significantly lower than what was
originally requested. We cut GPO's annual spending plan for FY 201 1 as previously
submitted to the Joint Committee on Printing (JCP) by 15%. We have held the line on
salary increases consistent with the pay freeze ordered by tlie President, reduced tlie
number of senior-level managers, and implemented controls on hiring, travel, and related
discretionary accounts. Together these actions have resulted in a significant reduction in
overhead expenses.

In related actions, we created a multi-disciplinary task force to recover outstandilig
payments from Federal agencies, an effort that to date has recovered approximately $13
n~illionin outstanding payments at this writing. To help Congress reduce its printing
costs, we conducted the first-ever survey of Senate and House offices on their continued
need for printed copies of the Congressional Record and other documents, resulting in
the reduction of several hundred copies to date. To meet what are expected to be
substantially reduced appropriations levels for FY 2012, we are conducting a
buyoutlearly out retirement incentive program targeting a reduction of 15% of the
workforce, and we expect to come in close to that target. We are also in discussions with
Amtrak and the Architect of the Capitol over the potential use of available GPO space by
these organizations, which could significantly reduce our facilities costs.

While we have worked to reduce costs, we have also made a commitment to do more
with less. To ensure a high performance culture as recommended by the Government
Accountability Office, GPO released a 201 1-2015 Strategic Vision Plan in April 201 1.
Emphasizing consumer-centrism and tlie irnporta~iceof employee-driven behavior, tlie
plan identifies tlie mission, vision, and core values for GPO. The plan's strategic goals
are sorted by four ~najorinitiatives: Satisfying Our Stakeholders, Strengthening Our
Organizatiolial Foundation, Offering Products and Services, and Engaging Our
Workforce. The plan was communicated to the GPO employees tlirougli the intellla1
weekly Headlines, the monthly newsletter, Net presenter, gpo.gov, and the Intranet, and


U S   G o v e i n m o n i P i i n f ~ n gO f f i c e , 7 3 2 N o r t h C o p # ? o iS t r e e t . N W . W n v h # n g t o n . D C 2 0 4 0 1 - 0 0 0 1 1 w w w . g p o . g o v
The Honorable Gregg Harper - Page 3


the strategic goals were incorporated into performance plans to promote high
perfonnance and accountability. The core commitments for the performance plans
focused on demonstrable achievements in diversity to ensure programs that support an
i~lclusiveworkplace. The focus of the plan has begun to take hold as shown by the
results of a recent survey of GPO's customer agencies. GPO also participated in the
Government Performance Results Act (GPRA) process through the Legislative Branch
Financial Managers Cou~lcil(LBFMC). GPO's achievements in FY 201 1 as measured
against the plan's goals are presented in the Strategic Vision Plan's FY 201 1
Accomplishments report, which is available on gpo.gov. The plan was recently updated
to reflect FY 2012-2016 goals and is also available on gpo.gov.

In other management actions, we have submitted to the JCP a program of capital
 investments for FY 2012 that will yield additional efficiencies in GPO's services. We
have continued the support of GPO's Federal Digital System (FDsys) as Congress and
Federal agencies move i~lcreasi~lgly  to the use of digital information products, in one
instance using that system to provide support requested by the National Archives and
Records Administration for providing public access to the previously unreleased grand
jury proceedings involving President Nixon. We started a Facebook page for GPO,
implemented a new pilot project to make Federal court opi~lio~ls    freely available online to
the public, and expanded GPO's partnership with Google Books to include Federal
consumer-oriented information made available by the General Services Administration.
We have signaled our support for pending legislation to provide public online access to
mandated Federal agency reports filed with Congress. We have released a mobile app of
GPO's online Member Guide, providing the public with access on a variety of devices to
photos and other information about Members of Congress. We are pursuing additional
revenue opportunities, particularly in the field of secure and intelligent documents. In
addition, this year we are celebrating GPO's 150"' year of service to Congress, Federal
agencies, and the public through an exhibit that we have opened to the public, and which
has been received very positively. I believe our program of reducing costs while
continuing to expand GPO's critically important information services to the Senate and
House of Representatives, as well as Federal agencies and the public, is working and
showing real and measurable benefits. We plan to continue following this path in the
coming months.

There is more that call be done, however, specifically in the area of printing procurement,
where in hearings before Congress, in my comments on the past OIG semiannual report,
and elsewhere, I have called for increasing the volume of procurement through GPO's
cost-effective and efficient partnership with the private sector in order to achieve
taxpayer savings. To handle the additional volume of work flowing through the
procurement program, more private sector jobs could be created, helping our Nation's
econolnic recovery. As long as the Government continues to order printing, GPO offers
the most cost-effective way of achieving its procurable printing needs. In addition to the
cost savings, when agencies procure their printing through GPO, the titles are cataloged
The Honorable Gregg Harper - Page 4


in our Catalog o f Government Publications and are made available in either digital or
tangible fomi to Federal depository libraries, thereby making them easily accessible to
the public. GPO's OIG can contribute to this effort by working to educate other Federal
OIGs about the requirements o f Title 44, U.S.C., and the savings that can be generated by
improved compliarlce with the law on the part of Federal agencies. I look forward to
seeing this issue addressed in future semiannual reports.

I.     Management Challenges. These comprise program areas determined by the
       OIG to be critical for GPO to address.

       (I)     Czlstonler Service: GPO has established customer service as its primary
       strategic goal, and the results of a customer satisfaction survey of more than 750
       Federal agency customers released near the end o f FY 201 1 indicates we are
       moving in the right direction. This was the first customer satisfaction survey
       coilducted since 2007 with the goal of identifying ways GPO can better serve
       Federal agency custon~ers. The survey focused on GPO's printing and
       publishing services, billing processes, and employee customer service. Amoiig
       other things, the survey found that 91% of customers are satisfied overall with the
       services they are receiving, 89% o f customers are likely to recommend GPO to a
       colleague, and 81% o f customers utilize the forms and publications available on
       GPO's Web site. The survey also reported improvements in satisfaction with
       GPO's billing process, including promptness o f billing, accuracy o f invoices, the
       billing problem resolution process, and GPO's deposit accounts.

       Earlier this year, GPO established a multidisciplinary task force to identify and
       resolve billing issues which has been working to improve customer satisfaction
       and collect outstanding funds owed to GPO. As the OIG report notes, as o f
       September 201 1 the team had "successfully reduced the chargebaclc balance by
       approximately $9 million." The team is not only resolving chargeback
       transactions but is establishing business relationships with customer agencies on
       both the program aiid finance side. Additionally, GPO and a major customer, the
       Defense Logistics Agency (DLA),developed a pre-billing validation file
       exchange process. This process allows DLA to validate IPAC transactions before
       GPO bills them, and it has bee11highly successful in reducing IPAC chargebacks
       from DLA. There are plans to roll this process out to other GPO customers in FY
       2012.

       GPO contirlues to support efforts to assist Congress in reducing its printing.
       When GPO's first online system, GPO Access, was first introduced in 1994, GPO
       was printing approximately 19,500 copies of the Congressional Record daily.
       Today, GPO prints approximately 3,000 copies daily, principally the long-term
       result o f the growing use of the oilline Record provided by GPO. Working with
       Clerks o f the House aiid Secretaries of the Senate during the same period, GPO
The Honorable Gregg Harper - Page 5


         has reduced the number of copies of bills, reports, hearings, docun~ents,and other
         printed publications required by Congress.

         In May 201 1, GPO conducted the first ever comprehensive survey of all Member
         offices, Committees, and other offices in the House and Senate on their continued
         need for the printed Record. GPO first surveyed the offices, then established a
         Web portal for offices to make their selections of printed publications, and finally
         cold-called all offices which did not respond to earlier contacts. At this writing,
         288 House Member and other offices had opted out or reduced their receipt of the
         Congressional Record (representing 267 copies), 9 House committees and 1
         subcommittee had requested to opt out or reduce their receipt of the Record
         (involving 19 copies), 60 Senate Member and other offices had requested to opt
         out or reduce their receipt of tlie Record (245 copies), and 13 Senate committees
         had requested to opt out or reduce their receipt of tlie Record (involving 61
         copies). The survey recipients also made changes in their.receipt of other printed
         publications, resulting in reductions in the number of copies of tlie Congressional
         Record Index, the Federal Register, the Federal Register Index, and tlie Code of
         Federal Regulations going to Congress.

         (2)     Hutnan Capital Ope?-ationsand Managenlent: As stated in the report,
         Human Capital is in tlie process of implementing a reorganization plan to
         transform HC operations and management. Additionally, in the past year HC has
         brought aboard several senior staff members, including a manager, with extensive
         experience in delegated competitive examining (DE). This new team has
         completely overhauled existing standard operating procedures with an increased
         focus on emphasizing accountability and cross-checking.

         Additionally, HC continues to lead the restructuring of GPO's workforce.
         Through the summer of 201 1, GPO developed workforce plans restructuring
         operations in anticipation of decreased resources. These plans envisioned a 15%
         reduction in total personnel and a 25% reduction in the number of supervisors.
         Looking forward, HC is committed to leading the implementation of this
         restructuring.

         Concerning the OIG's payroll audit, covering operations in FY 2009 and 2010,
         the OIG has delivered the final audit at this writing, and management has already
         provided responses to many of the report's recommendations. Management will
         continue reviewing the final report to identify any additional measures that may
         be undertaken to reduce instances of leave without pay, absences without leave,
         and other problems, which, according to the OIG, resulted in elevated and costly
         levels of overtime, LWOP, and AWOL in that period. Regarding overtime, in
         FY 201 1 a number of management spending controls were instituted and as a
         result, GPO overtime hours dropped by approximately 33% in the fiscal year
         (from 192,073 hours in FY 2010 to 129,298 hours in FY 201 1). Also, during the


U S   Government   Piintsng O f f i c e . 7 3 2 N o r l h C r p l t o l S t r e e t . N W . W n r h ~ n g t o n .D C 2 0 4 0 1 - 0 0 0 1 i w w w . g p o . g o v
The Honorable Gregg Harper - Page 6


            year a bi-weekly report o f AWOL and LWOP has been provided by Finance to
            Human Capital. The report shows, in detail, all employees on AWOL and
            LWOP. Additionally, the Human Capital Officecontinues to provide managers
            with guidelines and training to delineate supervisory and management authority
            and responsibilities over AWOL and LWOP.

            HC continues to make effortsto improve HC-related processing. This includes
                                        -      - o f oersonnel
            internal auditing-o f the orocessine     .         actions related to recruitment and
            hiring as a part o f planned quarterly audits o f GPO's recruitment and staffing
            processes, in addition to already existing quality assurance processes.

           (3)     FDsys: As I pointed out in my comments on the previous OIG
           semiannual report, in my view the previous GPO management plan for FDsys was
           unrealistic in view of the nature of the task and the methodology used to
           implement it compared with originally targeted costs and schedule. Originally
           slated to cost $29 million to develop in its entirety, the cost to date to develop
           Release 1-essentially constituting the replacement of GPO Access, but with
           significant new capabilities-has been $46 million, according to the semiannual
           report. A large part o f this cost was incurred in the unforeseen difficulty o f
           migrating databases from GPO Access to FDsys, a process that took much longer
           than originally planned, resulting in project delays. The development of the
           project was placed substantially in the hands o f expensive Government
           contractors, and as a result other problems occurred as well, according to the
           OIG's recently released audit report, GPO Oversight o f the Federal Digital
           System Master Integrator Contract (Audit Report 11-07, August 19,201 1). The
           audit found that GPO management did not adequately oversee the contract to
           ensure that Harris perfomled according to contract requirements, protect GPO's
           interest upon the initial indication of potential non-performance by Harris, and
           require adequate supporting documentation for contractor invoices before
           authorizing payment. As a result, the audit reported that GPO "paid Harris more
           than $5 million in excess o f their original contract price for significantly less work
           than the contract initially required ..." With tightening budget constraints and
           ever-growing public expectations for access to digital Government content
           through FDsys, GPO cannot afford to continue on this path.

           The good news is that GPO Access has been archived and FDsys is GPO's digital
           infonllation management system of record. The system debuted to generally
           positive reviews, as the OIG bas noted. Enhancements to FDsys are being made
           based on agency and stakeholder strategic inforn~ationmanagement, preservation,
           and access needs. FDsys Release 1 has established the foundational infrastructure
           for the system, created a reposito~yto ensure content integrity and authenticity as
           well as guaranteeing long-term preservation for digital Government content,
           provided users with an advanced search engine combining extensive metadata
           creation with modem search technology, implemented over 50 content collections

U S   G o v e r n m e n t P i i n l # n g O f f i c e . 7 3 2 N o r t h C o p l I o i S t r e e t , NW. W a s h # n g t o n . D C 2 0 4 0 1 - 0 0 0 1 I w w w . g p o s o v
The Honorable Gregg Harper - Page 7


      through a large scale data migration, and provided operational continuity for the
      system. There are no Severity 1 Critical Program Tracking Reports (PTRs)open
      for the FDsys program. The remaining PTRs will be added to release cycles
      based on priority. The majority o f the remaining PTRs are specific to individual
      collections, and will be resolved based on collection refresh cycles.

      With the foundational system completed, FDsys development priorities focus on
      bringing more content into FDsys and allowing lcey FDsys users to interface
      directly with the system and content. Additionally, the current development
      process allows for priorities to evolve or be added based on identified needs. New
      features will continue to be added to FDsys as needs are identified by
      stakeholders, and prioritized along with existing features. The vision of the
      FDsys Requirements Document has changed over time based upon shifting
      stakeholder needs. The original requirements are mapped to features o f varying
      priority levels. As a feature is moved into development, all existing requirements
      will be revisited and updated through stakeholder review discussions. This
      approach ensures priority feature requirements are valid and still meet stakeholder
      needs. FDsys has enabled new initiatives such as the Federal Register 2.0 Web
      site and support for the Administration's data.gov. It is the site for public access
      to digitized historical documents, such as the recently digitized historical volumes
      o f the Statutes at Large, and recently the grand jury proceedings concerning
      President Nixon. It will be the site for a new interface for the Constitution
      Alzrzotated, digitized historical volumes for the bound Congressional Record, and
      potentially for the collection o f mandated Federal agency reports filed with
      Congress.

      Concenling costs, GPO management has worked to maximize the value o f the
      limited dollars available for this project as a result o f the reduction o f
      appropriated funds to GPO's revolving fund in the final FY 201 1 Legislative
      Branch Appropriations Act, and is acting to ensure the availability o f funds in
      view o f the certain further reduction o f appropriated funds in the pending FY
      2012 Appropriations Act. Funding to continue development work and necessary
      operating expenses in FY 2012 has been submitted for the approval o f the JCP as
      part o f GPO's annual spending plan. As reported previously, due to management
      actions FDsys work was projected to come in under budget for FY 201 1 , and we
      continue to look for opportunities to reduce GPO dependence on Government
      contractors for the operation of this essential function. Concerning the
      duplication o f effort in maintaining FDsys and GPO Access, it is true that running
      systems in parallel represents additional costs. However, these additional costs
      were justified as a risk mitigation exercise. Moving GPO Access to archive-only
      status in November 201 1 will now decrease those costs.
The Honorable Gregg Harper - Page 8


      As the OIG report states, significant improvements in the testing process for
      FDsys have been achieved and implemented by GPO. This is evidenced also by
      the successful operations of the FDsys application and the reduction in the
      number of high priority user-reported problems. The OIG has been informed
      previously that all functions of the current system have been tested completely
      and the FDsys Master Test Plan has been successfully executed.

      Regarding program management, GPO is working towards the gradual integration
      of Earned Value Management (EVM) processes within its Programs, Strategy,
      and Technology office (PST). The addition of the Quality Assurance organization
      under the Office of the Chief Technical Officer will help drive the integration of
      various EVM processes to help strengthen the overall process and provide
      additional performance and progress reporting metrics. As the available EVM
      tools are put into place, PST plans on strengthening its ability to demonstrate the
      value of effective and detailed project and program planning with an emphasis on
      reporting and performance metrics. Training will be needed for staff on the use of
      EVM in order to lead to its implementation.

      Where transition planning is concerned, GPO Access was GPO's official system
      of record for over 15 years. Due to the name recognition and large user base,
      GPO reconsidered the Tvansition Master Plan for the GPO Access shutdown
      strategy in order to mitigate risks of user abandonment and ensure the continuity
      of GPO Access links post shutdown. In tandem, GPO performed a content audit
      of FDsys to ensure that the massive amount of content from GPO Access was
      fully ported into FDsys. As a result, a revised s h u t d o w ~plan
                                                                      ~ was devised that
      focuses on three phases: system of record, archive, and shutdown. FDsys became
      GPO's official system of record in December 2010. As of November 5,201 1,
      GPO Access entered the archive phase, during which the system is oilly available
      as a historical archive and new content is only published to FDsys. In order to
      achieve the final phase and shut down GPO Access, one-to-one redirects from
      GPO Access content to FDsys are being created. This will ensure that bookmarks,
      Web links, URLs in print publications, and other GPO Access references point to
      valid Web resources. The shutdown is due to be completed in FY 2012.

       (4)    Irlforrnation Techrzology Security Management: As noted in the SAR, the
      OIG closed open audit recommendations from the previous FISMA assessments
      in this period, which is evidence of GPO management's commitment and
      achievements in this area. Areas of focus for FY 2012 include patching of
      desktop systems, completi~lga co~ltingencyplan for IT&S systems, completing
      Privacy Impact Assessments for remaining key systems, and implementing a
      tracking system for accreditation of major systems. GPO's IT&S management
      anticipates that these actions will result in the closure of several additional OIG
      audit recommendatio~lsrelated to FISMA in the next OIG reporting period in FY
The Honorable Gregg Harper - Page 9


      2012. With respect to continuous monitoring of information systems as outlined
      in NIST Special Publication 800-37 Rev. 1, GPO IT&S has already implemented
      technology and processes in previous fiscal years to address this requirement,
      which has long been recognized in GPO IT&S as a key success factor in the
      effective defense and risk management for information systems. These
      technology and processes include: 1) real-time log event consolidation,
      correlation, analysis and alert notification; and 2) continuous vulnerability
      assessments for high risk systems, including Internet-facing systems.

      (5)     Acquisitions and Printing Procurelnent: Concerning the OMB Circular
      No. A-123 assessment, Acquisition Operations co~npletedan internal assessment
      of their operation utilizing senior managers to conduct interviews with staff and
      review standard operating procedures and directives. Part of the FY 2012
      performance goals for Acquisitions will be to address and implement findings
      coming from the assessment.

      Regarding actions to reduce procurement fraud, Acquisition plans on
      implementing internal controls to be reviewed quarterly. Contracting Officers will
      be working with contracting officer technical representatives (COTRs) to monitor
      ongoing contracts. Management concurred with the recommendations of the OIG
      in its audit report, GPO Oversight of the Federal Digital System Master Integrator
      Contract (Audit Report 11-07, August 19,201 I), and will work to implement a
      number of improvements for contract administration and oversight, take
      appropriate action to protect GPO's interest in the case of potential non-
      performance, and maintain complete contract files, and upgrade necessaly
      training on project management, At the same time, management appreciates the
      anti procurement fraud efforts of the OIG, which in FY 201 1 increased the
      number of suspension and debarment referrals in cases of printing contractor
      misconduct from only one in FY 2010 to 10 in FY 201 1. Because of these
      referrals, GPO debarred 12 subjects in FY 201 1, three times the number debarred
      in the previous two fiscal years.

      (6)     Continuity of Operatiorzs (COOP): GPO has included COOP in its
      Strategic Plan for FY 201 1-15, and is working to implement actions that address
      the risks and problems with COOP identified by the OIG. In addition, the agency
      is working with Congress and other Federal entities to establish the appropriate
      procedures to be followed in the event of an emergency affecting GPO operations.
      The earthquake that occurred in August 201 1 provided a real-life test of COOP
      preparedness, and GPO was able to continue operations to meet production
      requirements for the Senate and the Office of the Federal Register for that
      evening. In addition, during the reporting period GPO participated in the
      following COOP exercises:
The Honorable Gregg Harper - Page 10


            May 10,201 1: Participated in COOP Tuesday: Notification and Escalation.
            May 13,201 1 : Provided composition support for the Senate off-site interagency
            exercise.
            June 14,201 1 : Staff with GETS cards participated in COOP Tuesday: GETS
            Card.
            September 1,2011: Participated and provided guidance on the MUSTANG 201 1
            exercise. Plant Operations had staff from all three shifts in the planning phase and
            during the exercise. MUSTANG

            (7)    Internal Controls: Internal controls implemented earlier in FY 201 1 to
            control overhead expenses are continuing, including controls on travel, personal
            services contracts non-essential hiring, and related discretionary accounts.

            During FY 2011, GPO's Finance officebegan maintaining a separate list o f
             special journal entries for control and review purposes. In addition, special
            journal entries with larger balances are reviewed on a regular basis during the
             month-end closing process. Additionally, we have been making necessary
             improveme~ltsin the financial reporting process. These improveluents include
            better docunlentation o f the audit trails and management's review of the
            worksheets supporting financial statement balances. Improvements will continue
             in 2012.

            In the area o f IT general and application controls, a number o f OIG audit
            recommendations were successfully closed from the FY 2010 KPMG audit, and
            effortson remaining recommendations continue. In FY 2012, GPO will focus on
            desktop system security patching, access controls, and contingency planning.
            One o f the remaining reconlmendations (security management) would require
            significant resources to be expended by GPO and pertains to the production of
            accreditation documentation for legacy agency applications. GPO is assessing,
            from an integrated risk management and business perspective, how best to bring
            this item to closure while balancing resource requirements and intends to produce
            a plan targeted at closing this item during FY 2012.

            (8)      Protection of Sensitive Itlformation: GPO has accomplished several goals
            in this area, including an agency-wide baseline o f privacy data in accordance with
            GPO Directive 825.41, and the production o f a Privacy Incident Response Team
            (PIRT)Procedure, which includes establishment o f a Privacy Incident Response
            Team (including members from across various officesand disciplines o f the
            agency, including the General Counsel's office, IT&S, and others). Privacy
            Impact Assessments have been completed for the highest priority GPO
            informationsystems using accepted risk management principles, and the few
            remaining systems are near completion. GPO expects to make hrther progress in
                                                                                                                                                                            1




U   S G o v e r n m e n t P r i n t i n g O f f i c e , 7 3 2 N o r t h Capitol S t r e e t . N W . W n a h ~ n g f o o , D C 2 0 4 0 1 - 0 0 0 1 I w w w . g p o . g o v   f
                                                                                                                                                                            1
The Honorable Gregg Harper - Page 11


         FY 2012 to fully address all the audit recommendations on this important business
         and control topic.

         (9)     Finar~cialManagement and Performance: GPO will continue to
         aggressively address chargebacks in FY 2012. GPO has identified at least two
         other agencies where GPO believes the pre-billing validation file exchange
         process will make a significant contribution toward reducing chargebacks. Also,
         worlc is underway to develop a repository of SF-1 's, which will allow efficient
         retrieval of ordering docun~entsto answer customer inquiries. There are plans to
         allow customer agencies to access this repositoly. Finally, the GPO Form 400 is
         being improved so customers will be able to identify their bills more readily.

         (10) Stlstainable Ettvironmerttal Stewardship: As we have reported previously,
         GPO has an extensive record of implementing environmental measures in its
         operations, including the use of recycled paper (initial efforts date to 1972, with
         use of 100% recycled postconsumer waste newsprint for the Congressional
         Record first occurring from 1991-97 and resuming in 2009); the use of vegetable
         oil-based inlcs in accordance with legislation enacted in 1994 with GPO's support;
         projects to improve energy efficiency, including the installation of energy-saving
         air chillers and lighting in the early 2000s; and other environmental measures
         such as the ongoing work to complete the installation of a new roof that is energy
         efficient, continuing reductions in volatile organic compound emissions and
         hazardous waste usage, and related actions. GPO has implemented monitoring
         measures to more effectively gauge the use of steam supplied by the Architect of
         the Capitol, which comprises the single largest annual utility expense for our
         buildings. Other measures are underway or are planned, consistent with their
         proven contribution to energy efficiency or other sustainability improvements,
         and within the limitations of available funds.

11. Audits and Inspections. During the reporting period, the OIG issued 2 new audit
and assessluent reports, and began work on the audit of GPO's FY 201 1 consolidated
financial statements:

         a
         .       GPO Oversight of the Federal Digital System Master Integrator Contract
         (Audit Report 11-07, August 19,2011). This was an audit of GPO's management
         of the FDsys Master Integrator contract as carried out by the Harris Corporation,
         which ended in December 2008. The audit found that GPO management did not
         adequately oversee the contract to ensure that Harris performed according to
         contract requirements, protect GPO's interest upon the initial indication of
         potential non-performance by Harris, and require adequate supporting
         documentation for contractor invoices before authorizing payment. As a result,
         the audit reported that GPO "paid Harris more than $5 million in excess of their
         original contract price for significantly less work than the contract initially
         required.. ." The audit recommended that GPO implement a number of


U S   Govoinrnent   P ~ i n f i n gO f f i c e , 7 3 2 N o r t h C o p # t o l S t r e e t . N W . W a s h i n g t o n .   DC   2 0 4 0 1 - 0 0 0 1 I wu,w.gpo.gov
The Honorable Gregg Harper - Page 12


         inlprovelnents for contract administration and oversight, take appropriate action to
         protect GPO's interest in the case of potential non-performance, and maintain
         complete contract files, and upgrade necessary training on project management.
         Management concurred with the recomn~endationsand has planned responsive
         corrective actions.

         o       Assessment of GPO's Public Key Infrastructure Certification Authority-
         Attestation Report (Assessment Report 11-08, September 30,201 I). GPO's
         Public Key Infrastructure (PKI) assures users of GPO's digital docun~entsthat the
         documents are official and authentic. The GPO Certification Authority (CA)
         issues, signs, and manages the public key certificates in secure facilities in
         Washington, DC. GPO's PKI is cross-certified with the Federal Bridge
         Certificate Authority, whose certification provisions require that GPO's PKI
         undergo an annual compliance review. The review was conducted by Ernst &
         Young in accordance with American Institute of Certified Public Accountants
         WebTrust Principles and Criteria for Certificate Authorities and Statement on
         Standards for Attestation Engagements Number 10. The review resulted in an
         unqualified, or clean, opinion that GPO management's assertion related to the
         adequacy and effectiveness of controls over its CA is fairly stated, and that GPO
         management's assertion that its CA is in compliance with the requirements of the
         Federal Public Key Infrastructure Policy Authority is also fairly stated.

Prior Period Outstanding Recommendations. As required by law, this section
sum~narizesmanagement's actions to address OIG recommendations still outstanding-
from previous reporting periods. The OIG semiannual report notes that "GPO
management has made significant progress in closing open audit and assessment
recommendations."

         e      Federal Digital System (FDsys) Independent Verification and Validation
         (IV&V) - Fourth Quarter Report on Risk Management, Issues, and Traceability
         (Assessment Report 09-01, November 4,2008). One recommendation remains
         open.

         e      Federal Digital System (FDsys) Independent Verification and Validation
         (IV&V) - Fifth Quarter Report on Risk Management, Issues, and Traceability
         (Assessment Report 09-03, December 24,2008). One recommendation remains
         open.

         0      Federal Digital System (FDsys) Independent Verification and Validation
         (IV&V) - Sixth Quarter Report on Risk Management, Issues, and Traceability                                                                                         i
         (Assessment Report 09-07, March 20,2009). One recommendation remains
         open.                                                                                                                                                              I


                                                                                                                                                                            t




U.S   Government   P r i n t i n g O l f l c e , 7 3 2 N o r t h C z ~ i l o lS l i e e t . N W , W a s h i n g t o n . D C 2 0 4 0 1 - 0 0 0 1 i w u r w . g p o . g o v
The Honorable Gregg Harper - Page 13


                   Federal Digital System (FDsys) Independent Verification and Validation
            (IV&V) - Seventh Quarter Report on Risk Management, Issues, and Traceability
            (Assessment Report 09-12, September 30,2009). Two recommendations remain
            open.

            o      Federal Digital System (FDsys) Independent Verification and Validation
            (IV&V) - Ninth Quarter Report on Risk Management, Issues, and Traceability
            (Assessment Report 10-01, December 2,2009). Two recommendations remain
            open.

            0     GPO's Compliance with the Federal Information Security Management
           Act (Assessment Report 10-03, January 12,2010). As the OIG report states,
           management continues to worlc with the OIG to implement corrective actions on
           the remaining ten open recon~mendations.

            B      Government Printing Office's Ethics Program (Audit Report 11-01,
           December 16,2010). Management
                                       -       continues to work with the OIG to inlplemellt
           corrective actions on the two open recommendations.

           o       Control and Accountability of Laptop Computers (Audit Report 11-02,
           December 6,2010). Management continues to work with the OIG to implemellt
           corrective actions on the seven open recommendations.

           e      Secure Card Personalization System Information Technology Security
           Controls (Audit Report 11-06, March 31,201 1). One recommendation remains
           open.

111. Investigations. During the reporting period, the OIG perfornied investigative work
on external cases involving procurement fraud and other violations, and internal cases
involving employee misconduct, time and attendance fraud, theft, false statements,
unauthorized use of property, and other matters, as detailed in the semiannual report. In
some cases this worlc resulted in debarments of contractors. Notably, in FY 201 1 the
OIG increased suspe~lsionand debamlent referrals in cases of printing contractor
misconduct from only one in FY 2010 to 10 in FY 201 1. Because of these referrals, GPO
debarred 12 subjects in FY 201 1, three times the number debarred in the previous two
fiscal years. OIG investigative worlc into workers compensation fraud and employee
misconduct can also result in proposals for corrective action of employees. GPO
management continued to take action on recommendations by the OIG in a management
implication report (MIR) concerning supervisory controls in Plant Operations (issued in
November 2010), and another MIR concerning the management of GPO surplus property
(issued in December 2010).




U S   G o v c i n m o n f Pr8nllng O f f i c c . 7 3 2 North C n p l l o l S t r e e l . N W , Wanhlngfon. D C 2 0 4 0 1 - 0 0 0 1 I w w w . g p o . g o v
The Honorable Gregg Harper - Page 14


IV. Statistical Tables. Statistical tables as required by law are enclosed.

If you need additional information with respect to this report, please do not hesitate to
contact Mr. Andrew M. Sherman, GPO's Congressional Relations Officer, on 202-5 12-
1991, or by e-mail at ashernla~~@gpo.gov.

Sincerely,




WIL(L&      J. BOARMAN
Public Printer

Enclosures

cc:        The Honorable Charles E. Scbumer, Vice Chairman
           The Honorable Dan Lungren
           The Honorable Aaron Schock
           The Honorable Robert A. Brady
           The Honorable Charles A. Gonzalez
           The Honorable Patty Murray
           The Honorable Tom Udall
           The Honorable Lamar Alexander
           The Honorable Saxby Chambliss




                                                                                                                                                   j


                                                                                                                                                   8
                                                                                                                                                   I
                                                                                                                                                   f
                                                                                                                                                   i
                                                                                                                                                   1
U S . G o v o i n m c n i Piint8ng O f f i c e . 732 North Cnpltol S t r e e t , NW, Wash8ngfon. D C 2 0 4 0 1 - 0 0 0 1 i w w w . g p o . g o v   i
                                                                                                                                                   i

                                                                                                                                                   I
                                                             ENCLOSURE I

          STATISTICAL TABLE FOR SECTION 5(b)(2) - DISALLOWED COSTS

                                                                                     Number of       Disallowed Costs
                                                                                    Audit Reports Questioned Unsupported
A.      Audit reports for which final action' had
        not been taken by the conimencement
        of the reporting period                                                                 0                      0                         0

        Audit reports issued during the period
        with potential disallowed costs                                                         0                      0                         0

        Total Costs                                                                             0                      0                         0

B.      Audit reports on which mailagemelit
        decisions2 were made during the
        reporting period

        ( i.)      Dollar value of disallowed costs

        (ii.)      Dollar value of allowed costs

C.      Audit reports for which final action
        was taken during the period, including:

        ( i.)      Dollar value of disallowed costs
                   that were recovered by management
                   through offsets against other
                   contractor invoices or nonpayment

        (ii.)      Dollar value of disallowed costs
                   that were written off by management

D.      Audit reports for which no final
        action has been taken by the end
        of the reporting period




I
  As defined by law, the term "final action" means the completion of all actions that the management of
an establishment has concluded, in its management decision, are necessary with respect to the findings
and reconii~iendationsincluded in an audit report, and in the event that the managenient concludes no
action is necessary, final action occurs when a manageinent decision has been made.
  As defined by law, the term "managenient decision" means the evaluation by management of the
fiildiiigs and recon~mendationsincluded in an audit report and the issuance of a final decision by
~ i i a ~ ~ a g e mconcerning
                    ei~t      its response to such findings and recommendations, including actions concluded
to be necessary.


       U S      Government   Prsnllng O f f i c e .   7 3 2 N o r t h C o p l l o i S t r e e t . NW. W n s h 8 n g l o n . D C 2 0 4 0 7 - 0 0 0 1 i w w w . g p o . g o v
                                                              ENCLOSURE I1


     STATISTICAL TABLE FOR SECTION 5(b)(3) -FUNDS PUT TO BETTER USE
                 AGREED TO IN A MANAGEMENT DECISION

                                                                                         Number of                      Dollar Value of
                                                                                         Audit Reports                  Recommendations
A.      Audit reports for which final action3 had
        not been taken by the commencement of
        the reporting period                                                                          0                                        0

        Audit reports for which final action had
        not been taken for new reports issued
        during the reporting period with potential
        funds put to better use

B.      Audit reports on which management
        decisions4 were made during the reporting
        period

C.      Audit reports for which final action was
        taken during the reporting, including:

        ( i.)        Dollar value of recommendations
                     that were actually completed

        (ii.)        Dollar value of recomlnendations
                     that management has subsequently
                     concluded should not or could not
                     be implemented or completed                                                     0

D.      Audit reports for which no final action has
        been taken by the end of the reporting period                                                0




  Same definition as in Enclosure I.
"ame definition as in Enclosure I.


       U S      G o v e r n m e n t P r i n i l n g O f f i c e . 7 3 2 North Cnp8toi Street. NW, W a s h i n g t o n . DC 2 0 4 0 1 0 0 0 1   www.gpo.gor
